X.

V

'i

APPENDIX

A

‘'V

Case 19-3275, Document 85, 05/05/2020, 2832326, Pagel of 2

MANDATE

S.D.N.Y. -N.Y.C.
19-CV-3760
Broderick, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 27th day of February, two thousand twenty.
Present:
Robert A. Katzmann,
ChiefJudge,
Amalya L. Kearse,
Joseph F. Bianco,
Circuit Judges.
In Re: Chen Xu,
Petitioner,
***************************************************

Chen Xu,
Petitioner,
v.

19-3275 (L)

City of New York,
Respondent.

Chen Xu,
Plaintiff-Appellant,
v.

19-3864 (Con)

City of New York,
Defendant-Appellee,
Administration for Children’s Services, New York State Family
Court,
Defendants.

MANDATE ISSUED ON 05/05/2020
a

Case 19-3275, Document 85, 05/05/2020, 2832326, Page2 of 2

Appellant, pro se, moves for temporary restraining orders, to expedite the mandamus proceedings
and consolidated appeal, and to amend the caption. Upon due consideration, it is hereby
ORDERED that the mandamus petition in 19-3275 is DENIED because Appellant has not met the
standard for mandamus relief. See Cheney V. U.S. Dist. Ct. for D.C., 542 U.S. 367, 380-81
(2004). It is further ORDERED that the consolidated appeal in 19-3864 is DISMISSED because
Appellant’s challenges to the district court’s dismissal of her amended complaint present “no
arguably meritorious issue for our consideration.” Pillayv. INS, 45 F.3d 14, 17 (2d Cir. 1995)
(per curiam). In light of our disposition of the mandamus proceedings and appeal, it is further
ORDERED that Appellant’s motions are DENIED as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

ATrtte Copy
Catherine O’Hagan W
United States Co

2 Of
econd Circuit

v'v

APPENDIX B

n

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 1 of 10

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

CHEN XU,

USDCSDNY
DOCUMENT
ELECTRONICALLY FILED ,
DOC*:/
,
.
■,
DATE FILED: 11/8/2019

Plaintiff,
19-CV-3760 (VSB)
-againstOPINION & ORDER
CITY OF NEW YORK,
Defendant.
X

Appearances:
Chen Xu
New York, NY
Pro se
David Sumner Thayer
New York City Law Department
New York, NY
Counsel for Defendant
VERNON S. BRODERICK. United States District Judge:
Plaintiff Chen Xu brings this action pro se against Defendant the City of New York (the
“City”). Before me are Plaintiffs motion for a preliminary injunction, (Doc. 28), and
Defendant’s motion to dismiss the amended complaint, (Doc. 32). Because I abstain from
exercising jurisdiction over Plaintiffs claims, and in the alternative find Plaintiffs allegations to
be insufficient under Monell v. Department ofSocial Services, 436 U.S. 658 (1978), Defendant’s
motion to dismiss is GRANTED, and, therefore, I do not reach a decision on Plaintiffs motion
for a preliminary injunction.

3 0\
■

■:

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 2 of 10

L

Background 1

Plaintiff alleges that on Friday, March 15, 2019, at 8:20 pm, two women from the
Administration for Children’s Services (“ACS”) came to her apartment stating that they received
a report from a doctor’s office conveying that Plaintiff was insisting that her son was sick despite
the doctor’s diagnoses to the contrary. (Doc. 51 f 24.) Plaintiff claims she explained to the two
ACS representatives that her “son has Hydronephrosis,” {id. at f 25), and then called 911 to
come and confirm whether the two women were indeed from ACS, {id. at If 27). Plaintiff asserts
that ACS questioned her son, and at around 11 p.m., ACS employees called an ambulance and
forced Plaintiff, her son, and her parents to a hospital emergency room. {Id. at | 34.) Plaintiff
alleges she was forced to stay at the hospital with her son and family until 4:00 p.m. on Monday,
March 18, 2019. {Id. 38.)
On March 18, 2019, ACS instituted an ex parte proceeding in New York Family Court
pursuant to New York Family Court Act Section 1027, requesting a remand of Plaintiff’s son to
the custody of ACS. {See Doc. 34, Ex. A.) ACS described for the court that, during its initial
encounter with Plaintiff on March 15, 2019, ACS employees asked for documentation of
Plaintiffs son’s medical history, which Plaintiff refused to provide. {Id. at 10:2-21.) Plaintiffs
refusal, coupled with ACS’s awareness that “[Plaintiff] ha[d] brought the child to several
medical appointments and hospitals in different states” and might be displaying symptoms of

1 The facts of this case are derived from Plaintiff’s submissions and from New York Family Court transcripts and
orders of which the Court may take judicial notice. Plaintiff’s Amended Complaint, (Doc. 18), does not set out all
of the facts of this case, but Plaintiffs opposition papers included a detailed declaration, (Doc. 51 at 26), containing
factual allegations which I can construe as amending Plaintiff’s complaint when deciding the instant motion. See,
e.g., Walker v. Schult, 717 F.3d 119, 122 n.l (2d Cir. 2013) (“A district court deciding a motion to dismiss may
consider factual allegations made by a pro se party in his papers opposing the motion.”); Davila v. Lang, 343 F.
Supp. 3d 254, 267 (S.D.N.Y. 2018) (“Because Davila is proceeding pro se, the Court may consider new facts raised
in opposition papers to the extent that they are consistent with the complaint, treating the new factual allegations as
amending the original complaint.”). I assume the allegations set forth in the Amended Complaint to be true for
purposes of this motion. See Kassner v. 2ndAve. Delicatessen Inc., 496 F.3d 229, 237 (2d Cir. 2007). My
references to these allegations should not be construed as a finding as to their veracity, and I make no such findings.

r- 4-Ok

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 3 of 10

“Munchausen by proxy,” led authorities to take Plaintiff and her son to New York Presbyterian
Hospital where Plaintiffs son was held until Section 1027 proceedings could be instituted. (Id.
at 5:7-21.) At the conclusion of the Section 1027 hearing, Judge Clark V. Richardson ordered
that Plaintiff s son be placed in the custody of ACS and further ordered authorization for the
provision of any necessary emergency medical care for the child. (See id. and Doc. 34, Ex. C.)
On March 25, 2019, the Family Court held an order to show cause hearing pursuant to
New York Family Court Act Section 1028, which Plaintiff attended. (Doc. 34, Ex. D.) Plaintiff
testified that her son suffered from a serious heart disease and had only a “30% chance to
survive,” necessitating attentive medical care. (Id. at 3:24-4:15). Judge Richardson immediately
dismissed the order to show cause with leave to refile, and instructed ACS to consider what
Plaintiff had said about her son’s medical issues and address the health concerns accordingly.
(See id. at 5:4-9.)
On April 12, 2019, the Family Court resumed its Section 1028 proceeding. (Doc. 34, Ex.
F.) Plaintiff was present at this proceeding and presented her son’s medical records to the court.
(Doc. 51 f 64.) After considering the evidence, Judge Richardson ruled against Plaintiff. Judge
Richardson found that returning Plaintiffs son to her custody would present an “imminent risk to
th[e] child’s life and health,” and further concluded that “[i]t [was] clear from the evidence” that
the Plaintiff had “forc[ed] the child to undergo some very ... painful procedures” despite doctors
telling Plaintiff that “they [saw] nothing to be alarmed about.” (Id. at 3:19-5:12.) Plaintiff
appealed Judge Richardson’s ruling to the Appellate Division of the Supreme Court, First
Judicial Department, but her appeal was denied on May 23, 2019. (See Doc. 34, Ex. H.) In
connection with the Family Court proceedings, Judge Richardson also issued two Temporary

V.

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 4 of 10

Orders of Protection against Plaintiff, preventing her from contacting her son outside of Agency
Supervised Visitation. {See Doc. 34, Ex. I, Ex. J.)
Plaintiff alleges that since April 12, 2019, ACS has improperly vaccinated her son and
failed to appropriately treat him. (See Doc. 51 at

71-73, 75-76.) She also claims that her son

“repeatedly got hurt in foster care,” (Doc. 18 at 2), and that ACS threatened her and her family in
retaliation for this suit, {id. at 9, f 1).
11.

Procedural History

Plaintiff commenced this action by filing the complaint (“Complaint”) on April 26, 2019,
seeking to recover custody of her son. (Doc. 1.) On the same day, Plaintiff submitted a notice of
emergency motion, seeking an order releasing her son into her custody. (Doc. 3.) On May 1,
2019, Plaintiff filed a second emergency notice of motion, seeking substantially the same relief.
(Doc. 6.) On May 6, 2019,1 entered an order: (1) denying both emergency motions; (2)
di smissing the originally named Defendants, ACS New York and the Family Court of the State
of New York; and (3) construing the Complaint as alleging claims against the City and directing
the Clerk of Court to amend the caption accordingly and issue a summons as to the City. (Doc.
11.) On May 8, 2019, Plaintiff filed another motion for emergency relief, (Docs. 13, 14), which I
denied for the reasons detailed in my May 6, 2019 order, (Doc. 16). Plaintiff filed an amended
complaint on May 17, 2019 (“Amended Complaint”), naming the City as the only defendant, and
alleging that the City had violated her and her son’s procedural and substantive due process
rights. (Doc. 18.)
The parties appeared for a status conference on June 14, 2019, and Plaintiff filed the
currently pending motion for a preliminary injunction on June 28, 2019, (Doc. 28), which
Defendant opposed on July 12, 2019, (Doc. 39). Defendant filed a motion to dismiss the

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 5 of 10

Amended Complaint on July 2, 2019, (Doc. 32), supported by a memorandum of law, (Doc. 33),
and a declaration with exhibits, (Doc. 34). Plaintiffs memorandum in opposition to Defendant’s
motion to dismiss and supporting declaration were received by the pro se office on July 16,
2019; however, because the filing included sensitive information, including photographs of and
medical records for Plaintiffs minor child, I ordered that the documents be sealed in part, (see
Docs. 44, 48), and a redacted filing was docketed on July 26, 2019, (Doc. 51). Defendant
submitted a reply memorandum in support of its motion to dismiss on August 16, 2019, (Doc.
54), and Plaintiff filed a sur-reply, without having sought leave to do so, on August 23, 2019,
(Doc. 57). Plaintiff did not submit a reply memorandum in support of her motion for a
preliminary injunction, but she did submit several additional letters requesting injunctive relief
pertaining to her minor child. (See Docs. 38, 50, 52, 62, 63, 67, 68.) Defendant addressed the
claims raised in these additional letters through several of its own letters. (See Docs. 65, 66, 69,
70.)

111.

Legal Standards

To survive a motion to dismiss under Federal Rule of Civil Procedure 12(b)(6), “a
complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). A claim will have “facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. This standard demands “more than a sheer possibility
that a defendant has acted unlawfully.” Id. “Plausibility ... depends on a host of considerations:
the full factual picture presented by the complaint, the particular cause of action and its elements,
and the existence of alternative explanations so obvious that they render plaintiffs inferences

Case i:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 6 of 10

unreasonable.” L-7 Designs, Inc. v. Old Navy, LLC, 647 F.3d 419, 430 (2d Cir. 2011).
In considering a motion to dismiss, a court must accept as true all well-pleaded facts
alleged in the complaint and must draw all reasonable inferences in the plaintiffs favor. Kassner
v. 2ndAve. Delicatessen Inc., 496 F.3d 229, 237 (2d Cir. 2007). A complaint need not make
“detailed factual allegations,” but it must contain more than mere “labels and conclusions” or “a
formulaic recitation of the elements of a cause of action.” Iqbal, 556 U.S. at 678 (internal
quotation marks omitted). Finally, although all allegations contained in the complaint are
assumed to be true, this tenet is “inapplicable to legal conclusions.” Id. A complaint is “deemed
to include any written instrument attached to it as an exhibit or any statements or documents
incorporated in it by reference.” Chambers v. Time Warner, Inc., 282 F.3d 147, 152 (2d Cir.
2002) (quoting Int 7 Audiotext Network, Inc. v. Am. Tel. & Tel. Co., 62 F.3d 69, 72 (2d Cir.
1995)).
Even after Twombly and Iqbal, a “document filed pro se is to be liberally construed and a
pro se complaint, however inartfully pleaded, must be held to less stringent standards than
formal pleadings drafted by lawyers.” Boykin v. KeyCorp, 521 F.3d 202, 214 (2d Cir. 2008)
(quoting Erickson v. Pardus, 551 U.S. 89, 94 (2007)). Further, pleadings of a pro se party should
be read “to raise the strongest arguments that they suggest.” Brownell v. Krom, 446 F.3d 305,
310 (2d Cir. 2006) (quoting Jorgensen v. Epic/Sony Records, 351 F.3d 46, 50 (2d Cir. 2003)).
Nevertheless, dismissal of a pro se complaint is appropriate where a plaintiff fails to state a
plausible claim supported by more than conclusory allegations. See Walker v. Schult, 111 F.3d
119, 124 (2d Cir. 2013). In other words, “the duty to liberally construe a plaintiff s complaint is
not the equivalent of a duty to re-write it.” Geldzahler v. N. Y. Med. Coll., 663 F. Supp. 2d 379,
387 (S.D.N.Y. 2009) (internal quotation marks omitted).

;■ ?c\

v

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 7 of 10

IV.

Discussion
A.

The Court Abstains from Exercising Jurisdiction

The Supreme Court has recognized certain classes of cases in which the overriding
obligation of federal courts to decide cases within the scope of their jurisdiction is overcome and
abstehtion is warranted in light of “the praspe'ct of undue interference with state proceedings.”
Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 72 (2013). The Younger abstention doctrine
exemplifies one such circumstance where the Court has indicated abstention is warranted.
Younger v. Harris, 401 U.S. 37 (1971). Although Younger originally held that abstention is
warranted only where there is a parallel, pending state criminal proceeding, see Younger v.
Harris, 401 U.S. 37 (1971), the Supreme Court has extended Younger to “particular state civil
proceedings that are akin to criminal prosecutions or that implicate a State’s interest in enforcing
the orders and judgments of its courts,” Sprint, 571 U.S. at 72-73. As a result, Younger
abstention can be applied in three “exceptional” circumstances: “‘state criminal prosecutions,’
‘civil enforcement proceedings,’ and ‘civil proceedings involving certain orders that are uniquely
in furtherance of the state courts’ ability to perform their judicial functions.’” Id. at 73 (quoting
New Orleans Public Serv., Inc. v. Council of City ofNew Orleans, 491 U.S. 350, 367—68
(1989)).
The Supreme Court has held that a state’s “temporary removal of a child in a child-abuse
context is” the type of civil proceeding in which important state interests are involved, rendering
Younger abstention in such cases appropriate. Moore v. Sims. 442 U.S. 415, 423 (1979). The
Second Circuit has similarly instructed that “federal-court abstention is required” under Younger
when a plaintiff “seeks declaratory or injunctive relief that would interfere with a ‘[sjtate court’s
ability to perform its judicial function in ... [an ongoing] custody proceeding[ ].’” Bukowski v.

: • <1 <K

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 8 of 10

Spinner, 709 Fed. Appx. 87, 88 (2d Cir. 2018) (summary order) (citing Falco v. Justices of the
Matrimonial Parts of Supreme Court ofSuffolk Cty., 805 F.3d 425, 427 (2d Cir. 2015)); see also
Black v. Ranley, 2018 WL 2766138, at *13 (S.D.N.Y. June 8, 2018) (construing Younger to
foreclose District Court review of New York Family Court custody orders). Although I construe
Plaintiffs complaint to raise substantive and procedural due process claims, the relief Plaintiff
seeks ultimately amounts to a collateral attack on New York Family Court orders issued in an
ongoing custody proceeding pursuant to New York Family Court Act Sections 1027 and 1028.
Therefore, I find that Plaintiffs case falls squarely within the class of cases in which Younger
abstention is warranted.
Although Plaintiff argues that Younger abstention is inapplicable in this case due to the
“bad faith” exception, (see Doc. 51 at 14, 16), for a federal plaintiff to invoke the bad faith
exception “the party bringing the state action must have no reasonable expectation of obtaining a
favorable outcome.” Diamond “D” Const. Corp. v. McGowan. 282 F.3d 191. 198 (2d Cir. 2002)
(internal quotation marks omitted). Indeed, “[a] state proceeding that is legitimate in its
purposes, but unconstitutional in its execution—even when the violations of constitutional rights
are egregious—will not warrant the application of the bad faith exception.” Id. Even construing
Plaintiff s allegations liberally, the contention that Defendant instituted these child custody
proceedings in bad faith is meritless. Accordingly, I abstain from exercising jurisdiction in this
case pursuant to Younger.
B.

Liability Under 42 U.S.C. § 1983

Notwithstanding my decision to abstain under the Younger doctrine, I will proceed in the
alternative to examine the sufficiency of Plaintiff s constitutional claims, which I construe as
articulating substantive and procedural due process claims against the City. For the reasons

^'•

Moot

*

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 9 of 10

stated below, even if I were to exercise jurisdiction over Plaintiffs case, her Amended
Complaint fails to adequately plead liability under 42 U.S.C. § 1983.2
Under the standards of Monell v. Department ofSocial Services, 436 U.S. 658 (1978), a
municipality like the City can be held liable under Section 1983 if the deprivation of the
plaintiffs rights under federal law were caused by a governmental custom, policy, or usage of
the municipality. Jones v. Town ofE. Haven, 691 F.3d 72, 80 (2d Cir. 2012). Because
Plaintiffs core allegation is that ACS employees failed to abide by “procedures required [by]
law,” (Doc 51 at 11), and “didn’t obey the general procedures of [ACS] rules,” {id. at 21), I
construe Plaintiffs Amended Complaint and declaration to raise a “failure to train” theory of
Monell liability.
As the Supreme Court has said, “[a] municipality’s culpability for a deprivation of rights
is at its most tenuous where a claim turns on a failure to train.” Connick v. Thompson, 563 U.S.
51,61 (2011). Still, a plaintiff may prevail on such a claim where a municipality has acted with
deliberate indifference. A municipality is deliberately indifferent if a policymaking official “was
aware of constitutional injury, or the risk of constitutional injury, but failed to take appropriate
action to prevent or sanction violations of constitutional rights.” Jones v. Town ofE. Haven, 691
F.3d 72, 81 (2d Cir. 2012); see also Wray v. City ofN.Y., 490 F.3d 189, 196 (2d Cir. 2007)
(defining deliberate indifference as a “conscious disregard of the risk that poorly-trained
employees will cause deprivations of clearly established constitutional rights”).
Here, the deficiencies in Plaintiffs Amended Complaint and declaration are two-fold.
First, Plaintiff states in conclusory fashion that the alleged violations of ACS policies and

2 To the extent Plaintiff’s complaint can be construed as raising constitutional claims on behalf of her son, {see Doc.
18 at 2, 5), Plaintiff’s pro se status renders such claims improper. See Cheung v. Youth Orchestra Found, ofBuffalo,
Inc., 906 F.2d 59, 61 (2d Cir. 1990) (“[A] non-attorney parent must be represented by counsel in bringing an action
on behalf of his or her child.”).

■t

'18-':

\\ CK

Case l:19-cv-03760-VSB Document 71 Filed 11/08/19 Page 10 of 10

procedures amounted to violations of her federal rights. (See, e.g., Doc. 51 at f 53 (“my case
actually ha[d] no investigation as the law required”), U 61 (“ACS didn’t have any documents to
lock [up] my son”), f 71 (stating that ACS acted “without any legal documents and procedures”).)
Plaintiff fails to allege what specific policies and procedures ACS allegedly violated, and how
those alleged violations amounted to a violation of her federal rights. Second, even if Plaintiff s
allegations sufficiently articulated the policies and procedures and how the violation of those
policies and procedures violated federal law, Plaintiff does not allege facts demonstrating ACS’s
deliberate indifference. Instead, Plaintiff argues that “it is the agency workers’ duty to make sure
their working procedure[s] obey the law,” and that municipal liability attaches when an agency
“cause[s] harm during the unlawful working process.” (Doc. 51 at 21.) Such an argument is
facially insufficient to support liability under Monell; therefore, the Amended Complaint must be
dismissed.
V.

Conclusion

For the reasons stated above, Defendant’s motion to dismiss is GRANTED. The Clerk of
Court is respectfully directed to terminate all open motions, to close this case, and to mail a copy
of this order to Plaintiff.
SO ORDERED.
Dated: November 8, 2019
New York, New York

F/l/rUSTt
Vernon S. Broderick
United Stales District Judge

\

APPENDIX C

Case 19-3275, Document 84, 04/27/2020, 2826465, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
27th day of April, two thousand twenty.

ORDER

In Re: Chen Xu,

Docket Nos: 19-3275 (L)
19-3864 (Con)

Petitioner.

Chen Xu,
Plaintiff - Appellant,
v.
City of New York,
Defendant - Appellee,

Administration for Children's Services, New York State
Family Court,
Defendants.

Petitioner and Plaintiff-Appellant, Chen Xu, filed a motion for panel reconsideration, or,
in the alternative, for reconsideration en banc. The panel that determined the appeal has
considered the request for reconsideration, and the active members of the Court have considered
the request for reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

\?>o\

Case 19-3275, Document 85, 05/05/2020, 2832326, Page2 of 2

Appellant, pro se, moves for temporary restraining orders, to expedite the mandamus proceedings
and consolidated appeal, and to amend the caption. Upon due consideration, it is hereby
ORDERED that the mandamus petition in 19-3275 is DENIED because Appellant has not met the
standard for mandamus relief. See Cheney v. U.S. Dist. Ct. for D.C., 542 U.S. 367, 380-81
(2004). It is further ORDERED that the consolidated appeal in 19-3864 is DISMISSED because
Appellant’s challenges to the district court’s dismissal of her amended complaint present “no
arguably meritorious issue for our consideration.” Pillay v. INS, 45 F.3d 14, 17 (2d Cir. 1995)
(per curiam). In light of our disposition of the mandamus proceedings and appeal, it is further
ORDERED that Appellant’s motions are DENIED as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan W

*

United States Coui

I'lA

Additional material
from this filing is
available in the
Clerk's Office.

